Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  STATE CHILDREN’S HEALTH
    INSURANCE PROGRAM

  Assessment of State Evaluations Reports




                        FEBRUARY 2001
                        OEI-05-00-00240
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago regional office prepared this report under the direction of William Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                  HEADQUARTERS

Deborah Walden, Team Leader                             Joan Richardson, Program Specialist

Nora Leibowitz, Project Leader

Michael Craig, Program Analyst





       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                    http://www.hhs.gov/oig/oei/
                     EXECUTIVE                        SUMMARY


PURPOSE

         To assess States’ evaluations of their performance goals, particularly those focused on
         reducing the number of uninsured children.

BACKGROUND

         Many low-income children receive health care coverage through Medicaid and the State
         Children’s Health Insurance Program (SCHIP). SCHIP is designed to reduce the number
         of uninsured children by offering health care coverage to previously uninsured children.
         The program targets children with family income too high for Medicaid and too low to
         afford private insurance.

         States annually report the results of SCHIP assessments to the Secretary of the
         Department of Health and Human Services. States also submitted evaluations of their
         programs and progress meeting goals to the Secretary by March 31, 2000.

         The Balanced Budget Refinement Act of 1999 requires that the Office of Inspector
         General (OIG) sample States in order to: (1) evaluate whether States are correctly
         enrolling children in SCHIP or Medicaid, and (2) assess States’ progress reducing the
         number of uninsured low-income children. The Act further requires the OIG to evaluate
         the progress sampled States have made to achieve their strategic objectives and
         performance goals. Sampled States must be selected from States only using SCHIP funds
         to operate SCHIPs separate from their Medicaid programs and cannot be selected from
         States using SCHIP funds to expand their Medicaid programs.

         This is one of two reports on five States administering separate child health programs.
         This report focuses on five States’ evaluations of their performance goals. In the
         companion report, we address State efforts to ensure that Medicaid eligibles are not
         enrolled in SCHIP.

FINDINGS

Questionable evaluations undermine the reliability of State reports of success

         Sampled States report reductions in the number of uninsured children and mixed success
         meeting other goals. SCHIP reports rely heavily on enrollment data and tend to use
         descriptive information in lieu of evaluation. These problems may render State reports of
         reductions in the number of uninsured unreliable.

SCHIP - Evaluation                                i                                OEI-05-00-00240
Evaluations have conceptual and technical weaknesses

         States report, and our evaluations confirmed, that problems with data impair State
         evaluations. States often set progress goals without thoroughly conceptualizing how
         evaluations would be conducted. Program evaluation is generally a low priority for
         SCHIP administrators, and program staff often lack evaluation skills and training. State
         reporting also is impaired by unreliable data often not comparable among populations and
         based on small populations that move frequently in and out of the programs. State data is
         often incomplete.

RECOMMENDATIONS

The Health Care Financing Administration (HCFA) should develop a more specific
framework for the content and structure of the reports States are required to
submit.

         The HCFA should identify a core set of evaluation measures that will enable all SCHIP
         States to provide useful information. HCFA should also develop a more specific
         framework for the content and structure of State evaluations.

HCFA and the Health Resources and Services Administration (HRSA) should
provide guidance and assistance to States in conducting useful evaluations of
their programs.

         To conduct more useful evaluations, SCHIP staff would benefit from assistance and/or
         training regarding data collections and evaluation, and resource determination.

         The HCFA and HRSA should assist States in building their capacity to collect required
         data, and work together to provide States with training and guidance. States would
         benefit from assistance regarding what data to collect, how to obtain specific data, how to
         determine if data is reliable, how to determine what the data is yielding, and how to
         evaluate the data. In addition, HCFA and HRSA should work with States to identify
         external sources of data and, as appropriate and necessary, work with these external
         sources to improve the reliability of data.

         Currently, poor coordination exists between SCHIP administration and the evaluation of
         SCHIPs. Program administrators indicated that their current focus is on enrolling children
         into the SCHIPs and, consequently, less attention is paid to evaluation. They also
         indicated that Federal reporting requirements are burdensome and funds for robust
         evaluations are lacking. The HCFA and HRSA should provide training to administrators
         and staff to help reduce the poor coordination between administration and evaluation, and
         make normal staff activities part of the evaluation process. The HCFA and HRSA should
         also work with States to identify, where needed, additional evaluation resources.



SCHIP - Evaluation                                ii                               OEI-05-00-00240
AGENCY COMMENTS

         The Health Care Financing Administration and the Health Resources and Services
         Administration provided formal comments to the draft report. Both concur with the
         findings and recommendations. The full text of their comments are included in
         Appendices A and B.




SCHIP - Evaluation                             iii                             OEI-05-00-00240
                          TABLE                     OF           CONTENTS

                                                                                                                   PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


                     Questionable evaluations undermine State reports of success . . . . . . . . . . . . . . . 6


                     Evaluations have conceptual and technical weaknesses . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES


                     A: HCFA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


                     B: HRSA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





SCHIP - Evaluation                                                                                      OEI-05-00-00240
                              INTRODUCTION


PURPOSE

         To assess States’ evaluations of their performance goals, particularly those focused on
         reducing the number of uninsured children.

BACKGROUND

         Many low-income children receive health care coverage through Medicaid and the State
         Children’s Health Insurance Program (SCHIP). Both Medicaid and SCHIP are joint
         State-Federal programs that allow States administrative discretion within guidelines
         established by statute and the U.S. Department of Health and Human Services.

         Medicaid, which was established in 1965, is the largest program providing health care
         services to America's poorest people. Within broad national guidelines set by the Federal
         Government, each State administers its own program, sets its own eligibility standards,
         determines the type, amount, duration and scope of services, and sets payment rates.

         Total non-administrative expenditures for the Medicaid program were $180.9 billion in
         1999 ($102.5 billion in Federal and $78.4 billion in State funds). The Health Care
         Financing Administration (HCFA) reports that in 1998, 51 percent of all Medicaid
         recipients were children. In 1998, Medicaid paid an average of $1,150 per child for the
         20.6 million children who received services through the program.

The State Children’s Health Insurance Program and uninsured children

         Over 10 million children in the United States are uninsured. SCHIP is designed to help
         reduce the number of uninsured low-income children by providing them with health care
         coverage. Title XXI of the Social Security Act (SCHIP’s enabling legislation) was
         created by the Balanced Budget Act of 1997 (P.L. 105-33). The law appropriated nearly
         $40 billion over 10 years to help States expand health insurance to children whose families
         earn too much to qualify for Medicaid, yet not enough to afford private insurance.

         Like Medicaid, SCHIP is a State and Federal partnership, but the Federal match for
         SCHIP expenses is greater than the match for Medicaid. States have three options for
         covering uninsured children under Title XXI: design a separate SCHIP program, expand
         Medicaid eligibility, or a combination of the two strategies. As of October 1, 2000,




SCHIP - Evaluation                                1                                OEI-05-00-00240
         15 States are administering separate SCHIPs, 23 run expanded Medicaid, and 18 have a
         combination of programs.1 This report focuses on 5 of the 15 States operating separate
         SCHIP programs. These States are Arizona, Colorado, Delaware, Georgia, Kansas,
         Montana, Nevada, North Carolina, Oregon, Pennsylvania, Utah, Vermont, Virginia,
         Washington, and Wyoming.

         Under Title XXI, a State must have an approved State plan for a fiscal year in order to
         receive an allotment that year. Each State submitted a SCHIP plan to HCFA, outlining
         program structures, use of funds, benefits, strategic objectives, and performance goals.

         Close to two million children who would otherwise be without health insurance coverage
         were enrolled in SCHIP in fiscal year 1999. This is double the number reported enrolled
         in 1998, the first full year of the program. Of the 56 State and territorial children's health
         insurance programs to date, 53 were operational during fiscal year 1999. Of the nearly
         two million children covered as of September 30, 1999, over 1.2 million children were
         enrolled in separate State-designed children's health insurance programs and almost
         700,000 were enrolled in Medicaid expansion plans.

Ensuring correct enrollment in SCHIP and Medicaid

         To encourage States to expand child health insurance eligibility, the Federal match for
         States’ Title XXI expenditures is greater than the match for Medicaid. The average
         federal match for Title XXI is 71 percent, while the average Federal match for Medicaid is
         57 percent. Medicaid is an entitlement program, and States are required to enroll all
         eligible children. SCHIP is not an entitlement program and States have the discretion to
         cap enrollment for SCHIP eligibles or create waiting lists. So that States do not try to
         maximize SCHIP reimbursements by enrolling Medicaid eligibles in SCHIP,
         Title XXI requires States to screen SCHIP applicants for Medicaid eligibility. Children
         found eligible for Medicaid must be enrolled in Medicaid rather than in SCHIP. States
         receive only the Medicaid-level match for any child enrolled in Medicaid based on the
         eligibility standards that existed before Title XXI was enacted. Due to their effort to
         enroll children in new Title XXI funded programs, some States have noticed the so-called
         “woodwork effect”; by conducting outreach for SCHIP, they encourage greater numbers
         of Medicaid eligibles to apply for health care services as well.

Statutory Requirement for States to Evaluate SCHIP

         Section 2107 of the SCHIP enabling legislation outlines the requirements for the
         programs’ strategic objectives and performance goals. However, the language is fairly
         broad, requiring only that each SCHIP State plan include a description of the program’s
         strategic objectives and performance goals. The strategic objectives must relate to
         increasing health coverage for low-income children. The State must establish at least one
         performance goal for each strategic objective.


         1
             Currently, 50 States, 5 Territories and the District of Columbia administer Title XXI programs.

SCHIP - Evaluation                                              2                                         OEI-05-00-00240
         The SCHIP plans must also include the program performance measures that the State
         plans to use to assess the provision of health insurance to low-income children and other
         efforts to maximize health benefit coverage for low-income and other children.
         Performance measures must be measurable through objective, independently verifiable
         means. To determine State program performance, the measures are to be assessed against
         State goals described in the approved SCHIP plan.

         Section 2108(b) of the Social Security Act requires each State to evaluate its 

         Title XXI program. Each January 1, States must provide an annual report to the

         Secretary of the Department of Health and Human Services on the results of State

         assessments. In addition, each State was required to submit an evaluation to the

         Secretary by March 31, 2000. Information that the States provided to the Secretary in

         their March 2000 reports will be used in the Secretary’s Report to Congress in 2001. A

         contractor is currently analyzing State evaluations and will report to the Secretary on

         States’ efforts. 


SCHIP Evaluation

         The annual SCHIP report and the March 2000 evaluation report cover some of the same
         information. For this reason, HCFA allowed States to submit the most recent annual
         report as part of the March 2000 report. All States utilized a single framework for their
         State evaluation reports. The National Academy for State Health Policy developed the
         framework for the report, along with a group of State officials and representatives from
         HCFA. Congressional staff, State program administrators, and child advocates reviewed
         and commented on drafts of the report framework.

         Evaluation reports submitted to HCFA in March 2000 were designed to provide
         information on the progress of State efforts to meet the strategic objectives they outlined
         in their SCHIP plans. The framework included a section for a summary description of key
         accomplishments in decreasing the number of uninsured low-income children. States were
         asked to provide information about how they developed estimates of insurance coverage,
         as well as how reliable they think their estimates are.

         In order to indicate progress made to achieve a State’s strategic objectives, the report
         framework includes a structure for States to report the data and methodology used to
         measure progress toward objectives and goals, and an assessment of any progress made.
         The report also includes significant background information on the SCHIP as well as local
         environmental factors and trends affecting the State program. States are asked to assess
         their experiences with enrollment, disenrollment, expenditures, access to care, and quality
         of care. The final section provides a chance for the State to reflect on successes and
         challenges facing the program.

         Strategic objectives. Title XXI allows States to establish their SCHIP strategic
         objectives. As outlined in their SCHIP State plans, the States in our sample established
         strategic objectives focused on reducing the number of uninsured children and improving
         access to care for children.

SCHIP - Evaluation                                3                                OEI-05-00-00240
         State strategic objectives also relate to:


         C           increasing awareness of health care programs and options;

         C           conducting outreach and increasing public awareness of SCHIP;

         C           monitoring utilization of services; 

         C           improving health care services or outcomes; and

         C           encouraging service use by program participants.


         Performance goals. Most States identified a single goal for each of their strategic

         objectives. One sampled State went further, providing three to five goals for several of its

         objectives. The goals were developed as part of the SCHIP plans and were often

         developed by a group comprised of representatives from multiple State agencies. Two

         States specifically set up SCHIP, and thus their goals for the program, to match their

         existing Medicaid programs. 


Legislative Requirement for OIG Studies

         Section 703 of the Balanced Budget Refinement Act of 1999 required that the Office of
         Inspector General (OIG) sample States in order to: (1) evaluate whether States are
         correctly enrolling children in SCHIP or Medicaid as appropriate; and (2) assess the
         progress made by States to reduce the number of uninsured low-income children. The Act
         further required that the OIG evaluate the progress sampled States have made to achieve
         their strategic objectives and performance goals. Sampled States must be selected from
         States not using any SCHIP funds to expand Medicaid.

         This is one of two reports focusing on a sample of five States administering separate
         SCHIP. This report focuses on States’ evaluations of their performance goals. In a
         companion report entitled “State Children’s Health Insurance Plan - Ensuring Medicaid
         Eligibles are not Enrolled in SCHIP,” OEI-05-00-00241, we address State efforts to
         ensure Medicaid eligibles are not enrolled in SCHIP.

METHODOLOGY

         Based on the requirements outlined in the Balanced Budget Refinement Act of 1999, we
         limited our universe to the 15 States utilizing their Title XXI allotments to operate
         separate child health programs. Two States, Wyoming and Washington, were excluded
         from the population because they began administering SCHIP in December 1999 and
         February 2000, respectively, and thus had no enrollees in fiscal year 1999.

         We used a 2-stage stratified-cluster sampling plan to select 5 States from the 13 remaining
         States. The remaining 13 States were divided among 2 strata. Pennsylvania was a self-
         representing State as illustrated in Strata 1, based on the significantly large number of
         children enrolled in their SCHIP. From the remaining 12 States, we randomly selected 4
         States, North Carolina, Oregon, Utah, and Vermont, for Strata 2. The chart on the
         following page outlines the number of children enrolled in SCHIP in each of the Strata and
         sample States in Fiscal Year 1999.

SCHIP - Evaluation                                     4                              OEI-05-00-00240
                                      Selected Sample States

                                              STRATA 1


                 States Selected    Number of Children Enrolled in    Number of Cases Selected For
                                         SCHIP in FY 1999                       Review

                     Pennsylvania               81,758                             100

                        Totals                  81,758                             100

                                              STRATA 2


                 States Selected    Number of Children Enrolled in     Number of Cases Selected For
                                         SCHIP in FY 1999                        Review

                 North Carolina                 57,300                             100

                       Oregon                   27,285                             100

                        Utah                    13,040                             100

                      Vermont                    2,055                             100

                        Totals                  99,680                             400


         We reviewed the 5 States’ Title XXI plans and the SCHIP evaluation reports submitted to
         HCFA in March 2000. We conducted on-site visits and met with staff at the agency
         administering the SCHIP in each of the five States.

         We conducted case file reviews and discussed enrollment issues and goal attainment with
         State staff. We reviewed 100 randomly selected active SCHIP case files in each State in
         order to evaluate whether ineligible children were enrolled in SCHIP. We provided each
         State with randomly selected case numbers and staff pulled these cases in preparation for
         our visit. The results of our case review were analyzed using a statistical analysis package
         that takes into account complex sample designs.

         One part of our discussions with SCHIP staff focused on State efforts to appropriately
         enroll children and safeguards used to ensure proper enrollment. We also discussed
         SCHIP evaluations. We collected documentation of State eligibility and enrollment
         practices and of evaluation efforts.

         We conducted our review in accordance with the Quality Standards for Inspections issued
         by the President’s Council on Integrity and Efficiency.




SCHIP - Evaluation                                5                                 OEI-05-00-00240
                                     FINDINGS

Questionable evaluations undermine the reliability of State reports of
success

         The five sampled States report success reducing the number of uninsured children, but
         they did not evaluate all of their goals. Further, the evaluations they conducted are
         impaired by their reliance on descriptive explanations, a lack of objective measurement,
         and problems with the data used in analysis.

State reports of reductions in number of uninsured may be unreliable

         States report reductions in the number of uninsured children. Our analysis of States’ data
         and methods used leads us to question the reliability of State figures.

         Reports of reductions. The evaluation report in one of the sampled States notes that it is
         difficult to prove a causal relationship between increased SCHIP enrollment and a
         reduction in the number of uninsured. Evaluation reports in the other four States provide
         information on decreases in the number of uninsured children within the State and
         estimated pre-SCHIP baseline numbers of uninsured children. Two States estimate
         changes in the number of uninsured by comparing current (post-SCHIP implementation)
         estimates of uninsured to their baselines. The other States estimate reductions in the
         number of uninsured children by subtracting SCHIP enrollees from their original baseline
         estimates. The fifth State provides estimates of the total number of uninsured children and
         the number of uninsured SCHIP eligibles, and offers information about reductions in the
         number of uninsured children over the 1990's, but does not evaluate the impact the
         program has had on size of the uninsured population.

         Census and State data. Three States report baseline and current estimates of uninsured
         children based on Census data. One State gets its data from rolling averages of Census
         data. The State indicates that its degree of confidence in the estimate is tempered by
         Census data limitations that may impact data reliability. Another State utilizes SCHIP and
         Medicaid enrollment numbers and State insurance data (based in part on Census numbers)
         to estimate a reduction in the size of the uninsured population. The State credits the
         change to increases in SCHIP rolls because between the 1997 baseline and the 1999
         estimate, the percentage of low-income children on Medicaid remained constant, the
         percentage of children with other health insurance dropped, and the SCHIP program
         enrolled children for the first time.

         Three States, including one that also uses some Census data, base their estimates on State-
         collected data. In one State, the Department of Health conducts a survey every
         5 years which includes information that allows estimates to be made of the uninsured
         population. Other States rely on a State health insurance survey, a State population
         survey, and work done by a local university.


SCHIP - Evaluation                                6                                OEI-05-00-00240
         Size of change varies. State estimates of reductions in the number of uninsured children
         vary between the sampled States. It is difficult to compare the size of changes across
         States due to the differences between States in initial rates of uninsurance, overall State
         populations, and the size of SCHIP eligible populations. In the four States that offered
         both pre- and post-SCHIP implementation estimates, the change in the number of
         uninsured ranges from 5.8 to 21 percent. The State with the largest percent change in
         uninsured children had very low uninsurance rates even prior to SCHIP implementation.
         This State has both a small population and low initial and current number of uninsured,
         which makes the percent change in insurance so large. In addition, one State estimates the
         number of uninsured children under 200 percent of the Federal poverty level, while the
         others estimate the total number of uninsured children in their States.

         Estimating different numbers. The four States that assessed change in uninsurance
         rates each used data derived from different sources to show progress toward different
         target numbers. One State focused its assessment of enrollment and “crowd out” on the
         number of uninsured children in families with incomes below 200 percent of the Federal
         poverty level. A second State, using 3 year rolling averages of U.S. Census Survey data,
         reported the change in the total number of uninsured children in the State.

         Two other States each provided a baseline number of uninsured children from prior to
         implementation of SCHIP and subtracted the number of children enrolled in the program
         to show a decline in the percentage of uninsured children. Using this method, the State
         surpassed its projected decline in the number of children without insurance. The report
         did not indicate whether any children currently enrolled in SCHIP were enrolled in
         Medicaid or private insurance at the time the baseline uninsurance estimate was made.

         Both the State that did not provide information on changes in the number of uninsured
         children and one of the States that made a projection indicated they had difficulties making
         estimates because current information is not available. One State relies on insurance
         information from the State Department of Health that is updated every 5 years. This State
         reports that its increase in SCHIP enrollment was not matched by losses in private
         coverage, suggesting that children now enrolled in SCHIP were represented in the State’s
         earlier count of uninsured children.

         While States report success in enrolling children into SCHIP, not all States compared their
         progress to an established “goal” regarding enrollment or insurance coverage. One
         sampled State reports that it did not establish enrollment goals because it wants to enroll
         all eligible children. The State set benchmarks that it wanted to meet by certain dates but
         indicated that staff did not see these numbers as final enrollment goals. Another State
         indicated that it had not established an enrollment goal for the number of previously
         uninsured children but did use estimates of uninsured children and State resources to
         establish an initial enrollment goal.

States report mixed success meeting other goals

         Just as States were allowed to design and assess their own strategic objectives and
         performance goals, they also had free reign to describe their progress meeting them.

SCHIP - Evaluation                                7                                OEI-05-00-00240
         The 5 States we sampled provided evaluations or descriptions of 57 percent of the 

         42 goals established among them. While State evaluations showed that some evaluated

         more of their goals than others, looking only at the percentage of goals assessed does not

         provide full information. The State that provided progress reports on all of its goals had

         poorly developed goals and did not provide a full evaluation of those goals. The State

         with the most unevaluated goals has more overall goals and, to a much greater extent than

         the other States, has rigorous goals that can be evaluated quantitatively.


         States report success meeting between 67 and 100 percent of the goals on which they

         provided information. States reported the most success meeting goals that were assessed

         with simple quantitative measures -- particularly enrollment rates. 


         Enrollment rates. All five State evaluation reports provided information about increases

         in SCHIP enrollment. As States differ in their population size, initial rate of uninsured

         children, eligibility rules, and other program specifics, it is impossible to compare States’

         level of success enrolling children into SCHIP. Further, each State defined its own goals,

         so enrollment targets are not comparable among States. Three States met their self-

         defined enrollment goals, while a fourth did not. The fourth State’s evaluation report

         explains that, although the program enrolled more than the number of children specified in

         its enrollment goal, a larger than expected number of children disenrolled during the

         program’s existence. The fifth State did not set an enrollment goal, but instead used its

         enrollment numbers to show progress toward its goal of reducing the number of uninsured

         low-income children in the State. 


         One State in the sample established goals to increase access and improve service

         coordination by enrolling SCHIP children into managed care. The State was unable to

         meet these goals because the contracted managed care organizations shut down operations

         in the State. This forced the State to create its own managed care plan. During

         development, the State halted new managed care enrollments. The State did not evaluate

         how enrollment in managed care impacted access or service coordination. 


         Outreach. Three sampled States analyzed goals aimed at developing and implementing

         outreach plans for SCHIP and other health care programs for low-income children. These

         States used their reports to describe, rather than evaluate, their outreach programs. This

         may be in part because evaluating the success of outreach efforts is difficult and inherently

         somewhat subjective. These States focus more on their successful implementation of

         planned efforts than on whether the outreach programs encouraged enrollment in SCHIP

         and Medicaid. 


         Another State’s outreach goal stressed the role State agencies should play in executing

         outreach strategies. While agency participation was not analyzed, the State commissioned

         a survey to determine whether outreach activities increased awareness 

         of SCHIP and Medicaid among targeted families. The survey found public awareness of 

         SCHIP rose considerably from before the media campaign to 6 months after the

         campaign’s initiation. 





SCHIP - Evaluation                                 8                                 OEI-05-00-00240
         Utilization and access. Two States tried to evaluate service utilization and all five States
         attempted to measure access to care. Both types of effort met with mixed success.
         One State’s goals included monitoring enrollees’ utilization patterns, including their use of
         primary care and well child visits. The evaluation report indicated that the level of primary
         care visits was comparable with national standards, but the rate of well care visits was
         lower than State-wide goals for all children. In addition, the State did not evaluate its
         other utilization goals, such as immunization rates, dental care, and client satisfaction.

         Another State surveyed SCHIP families about whether enrolled children had a primary
         source of care, whether children were able to get needed care, and to what extent families
         were satisfied with their children’s health care. The survey indicated that the State is
         meeting its goals in this area, as most children had a primary source of care, few children
         were unable to access health care, and an overwhelming majority of respondents were
         satisfied with their children’s health care. The State indicates that as part of its next
         SCHIP survey, the State will administer the tool it developed to measure “crowd-out.”

         Other progress. All five State evaluations provided information about progress toward
         their goals in several other areas. One State assessed its attempts to improve enrollment
         practices by measuring what percentage of SCHIP applications they received through the
         mail or non-traditional sources. While the State did not meet its 50 percent goal, this
         assessment provided information about which applicants apply using the different
         methods. Another State described its efforts to expand its eligibility rules, restructure its
         data and operating systems, develop a unique coding system for SCHIP enrollees, and
         train staff to run the program. None of these descriptions are strictly evaluative, but they
         do provide updates on the activities taken by the SCHIP program administrators.

State reports are not very evaluative

         SCHIP programs are required by statute to evaluate their programs. Section 2107 of
         Title XXI of the Social Security Act requires that SCHIP plans include strategic objectives
         and performance goals, and that measures be established to evaluate program
         performance. Performance measures must be “(A) measured through objective,
         independently verifiable means, and (B) compared against performance goals, in order to
         determine the State’s performance.”

         Section 2108 of the Act outlines that each SCHIP must submit an annual assessment of
         “the operation of the State plan . . . including the progress made in reducing the number of
         uncovered low-income children.” Evaluations must assess “the effectiveness of the plan in
         increasing the number of children with creditable health coverage.” Additionally, each
         State must describe and analyze the effectiveness of elements of the State plan.

         Much of the information provided in State evaluations is qualitative and subjective. Four
         of the five States extensively utilize qualitative descriptions in their evaluation reports to
         HCFA. Descriptive responses generally provide information about State efforts without
         assessing what impact efforts had on attaining specific goals. Further, any evaluation of
         such a program would be subjective and could not be independently verified. None of the
         sampled States attempted any evaluation of their outreach programs or offered an

SCHIP - Evaluation                                 9                                  OEI-05-00-00240
         explanation of how such programs impacted their measurable progress in enrollment or
         the level of uninsured children.

         Several States provided information about what happened but were not able to explain
         why it happened. The sampled States have goals stating their outreach and other efforts
         will increase access to care, raise enrollment, or decrease the number of uninsured children
         in the State. State staff were unable to express how they chose their goals.

         Despite goals that suggest State efforts and outcomes will be measured, several States
         provide information about SCHIP and Medicaid enrollment increases without offering an
         explanation of how enrollment is impacted by their outreach or other efforts. For
         example, one State goal outlines the State’s intention to increase State government
         participation in outreach activities in order to increase access to health insurance. The
         evaluation provides information about the overall increase in SCHIP enrollment in the
         State but does not explain whether the goal (increasing government outreach efforts) was
         met or even what efforts were attempted. Further, the evaluation report does not indicate
         how such State efforts could be seen as causing the increased enrollment rates the State
         offers in its progress summary.

State evaluations rely heavily on enrollment data and descriptive information

         Sampled States utilize a variety of data but rely most on enrollment and descriptive data. 

         All five States used enrollment data to assess enrollment increases, decreases in 

         uninsurance levels, and increases in access to coverage. On the whole, States were able to

         assess the goals that rely on enrollment data. 


         Some States also utilized survey and health care utilization data to evaluate their SCHIP

         progress. Two States utilized participant surveys to evaluate their goals, while another

         plans a survey, but has not implemented it yet. State surveys were used to identify

         improved access to care and increased public awareness of SCHIP and Medicaid. Planned

         surveys will measure “crowd out,” use of preventative care, and client satisfaction. 


         One State compared Medicaid and SCHIP enrollees’ utilization patterns for primary care

         and well child visits to National Committee for Quality Assurance standards. Three other

         States planned to evaluate utilization data, but did not do this for their 

         March 2000 evaluation reports, in part because data was not available or did not exist in a

         format that allowed its analysis or comparison to other health information. 


State reports tend to be descriptive rather than evaluative

         While three States provide descriptions of SCHIP efforts, the information does not include
         assessments of the impact of State efforts on goals. Descriptions of expanded program
         rules, outreach efforts, and anti-“crowd-out” policies do not indicate how these efforts
         impact access to care or children’s health status. One State uses its evaluation report to
         describe the changes to State program rules and procedures that established




SCHIP - Evaluation                               10                                OEI-05-00-00240
         SCHIP. As a summary of its progress in improving service provision through managed
         care enrollment, another State explains its use of an automated referral process.

         States’ descriptive progress summaries do not evaluate State efforts. States tend to
         employ such summaries when they do not have the skills or the available data to analyze
         the work they have done or show progress toward their goals. While they provide some
         useful information about SCHIP, they are not a viable alternative to concrete evaluations
         of the impact of State efforts on program goals.

Evaluations have conceptual and technical weaknesses

         As described in the previous finding, State evaluations are flawed; some goals were not
         evaluated, and evaluations of others lacked objective measures of success. The reports
         were impacted by issues related to goal setting, staff skills and resources, program
         priorities, and data problems. States are aware of some of the flaws in their assessments
         and report barriers to conducting better evaluations.

Some goals were set without evaluation in mind

         State goals are not always easy to evaluate, in part because the staff who crafted the goals
         often did not consider what it would take to evaluate them. Most States established their
         goals, as required, in their State plans. The State plans were often written by groups made
         up of representatives from different agencies, each with their own priorities for children’s
         health. While this can help the State craft a more robust program, it also may mean that
         individuals not responsible for program implementation or evaluation establish goals
         without thought to how they will later be assessed. Sample States reported that their
         goals were designed at the time the State plan was written, but an explanation of how
         evaluation would occur was not developed. One State specifically noted that they
         established their plan without thinking about goal assessment.

         Not considering how goals would be evaluated led to the creation of unmeasurable goals.
         One State reported they used a goal taken directly from the State plan but are now not
         able to measure it because information is not available, and definitions that would allow
         comparisons across populations do not exist. One respondent reported that he is not sure
         how to measure some of the State’s goals and wondered how he should go about
         measuring coordination. Further, as the goal does not define what type of coordination
         should be assessed, he was not sure with what other agencies and organizations the
         program should be measuring the level of coordination.

         A third State admitted that its goals may not be entirely measurable. For example, one
         goal is to improve access to care by increasing State government participation in the
         program. The analysis shows increased enrollment but does not explain what government
         participation has occurred or how that participation impacted enrollment or access. When
         asked whether the program intended to evaluate this connection, respondents reported
         that they did not think they could quantify this.



SCHIP - Evaluation                               11                                OEI-05-00-00240
         They further reported that they have no indicators to evaluate efforts and no interest in
         developing any.

Program administrators do not make evaluation a priority

         The ultimate objective for SCHIP is to increase enrollment in health insurance programs to
         ensure that children receive appropriate health care services that maintain or improve
         health. Evaluation is important to ensure that State programs are meeting identified needs
         and are spending their allotments effectively, but ultimately program administrators are
         much more focused on running the programs than on assessing their success. Resources
         for evaluation are limited, particularly for smaller States which often feel constricted by
         the 10 percent cap on administrative activities.

         Staff in one State reported they are not sure when they will find time to decide what
         indicators they will use to assess quality. They indicated that they will probably default to
         using established measures because they have limited staff and are more focused on
         running the program than on measuring quality.

         Another sampled State reported doing a good job meeting its goals but is not doing a
         good job measuring its success. In part this is because States that believe they are
         successful may not be strongly motivated to evaluate themselves. Respondents in this
         State indicated that they are bringing a lot of children into the program and staff do not
         feel the need to assess what outreach efforts are working. They think that as long as they
         continue to enroll children, they will not worry about changing things.

         Even when States are not as convinced that they are succeeding, evaluation is generally a
         low priority for SCHIP. When asked about whether they planned to evaluate their stated
         goals more fully than they had for the March 2000 evaluation report, staff at one State
         told us that they did not plan to further assess their reported goals. They did not think it
         would be worth the required effort to track down the connections between their actions
         and the outcomes they are seeing in the program. Another State that is more focused on
         evaluation reported that although they believe their goals are important, it is expensive to
         evaluate a large number of goals. The cost and time required to evaluate multiple
         progress goals is slowing down evaluation efforts.

Program staff lack evaluation skills and training

         When State respondents were asked about evaluation issues such as how goals were
         developed or how assessments were conducted, they were often unable to provide
         meaningful information. Program staff were much more comfortable discussing the
         content of their goals than they were talking about how they decided to establish the goals
         or how they assessed progress. In several discussions, State staff were unable to explain
         why they thought an evaluation showed what it was intended to show.

         For the most part, SCHIP staff are not trained evaluators. Their skills lie where they are
         needed on a daily basis -- in program management and ensuring the effective and efficient
         administration of their programs. The language of evaluation is also foreign to

SCHIP - Evaluation                                12                                 OEI-05-00-00240
         many program administrators. Without a more thorough understanding of evaluation
         concepts and practices, program staff cannot be expected to turn out detailed assessments
         of program activities and outcomes.

         The lack of trained evaluation staff may be a particular problem for States in which
         Medicaid and SCHIP are administered separately. SCHIP staffs are often small, and
         program administrators have difficulty hiring evaluation staff when program staff are
         needed.

Problems with data impair evaluations

         Insufficient or flawed data caused problems for the sample States. States faced difficulties
         regarding unreliable data, missing data, non-comparable data sets, and small population
         sizes.

         Unreliable data. Several States indicated that they rely on Census data to make estimates
         of uninsured children and eligible children in the State. The use of Census data is widely
         criticized, particularly for States with smaller populations. One State reported that it’s
         estimate of total SCHIP eligibles comes from Census Current Population Survey (CPS)
         data on children below 200 percent of the Federal poverty level. This State told us that
         staff fear the CPS numbers are “no good.” This concern is in large part based on the poor
         record of CPS estimates of low-income children in the State. The CPS data indicated that
         there were 150,000 children under 150 percent of poverty in the State, despite the fact
         that more than twice this many children are currently enrolled in Medicaid. The State
         changed their process for estimating the number of uninsured children, but their new
         formula still relies on the CPS for some parts of the calculation. They know the data is
         flawed but have no other data on which to base their estimates.

         Another State relying on Census data reported frustration with the quality of Census
         information for small populations. State staff do not trust the Census data and have found
         that other population-based studies are not reliable for small States. This State reports its
         faith in the estimate of SCHIP eligible children in the State as “5” on a 1 (least reliable) to
         10 (most reliable) scale.

         Data collected by the States themselves also may be deficient. A State that relies on a
         health status survey administered by the State Department of Health expressed frustration
         with the age of the data. The survey, conducted every 5 years, provides baseline
         information on the number of uninsured children. Program administrators worry that the
         data is unreliable because it is old by the time they get it. Respondents from this State
         reported that on a scale from 1 to 10, they rated this data between 5 and 6.

         The SCHIP administrator used State-collected data to calculate a new uninsured rate by
         subtracting the total number of SCHIP enrollees from an estimate of uninsured derived
         from survey data. The State administrator admits that this methodology assumes that all
         SCHIP enrollees were previously uninsured and would be uninsured without the program,
         but reports that the State does not have better numbers or methods on which to base
         calculations.

SCHIP - Evaluation                                 13                                 OEI-05-00-00240
         Missing data. Obtaining accurate and meaningful utilization data is a challenge for
         States, which means that any subsequent analysis may be incomplete. States often rely on
         the contracting managed care organizations for data on use of services. Although States
         contractually require participating managed care organizations to provide data, the receipt
         of this data may not be timely. One State reported that encounter data they used to
         calculate use of preventative services is 25 percent incomplete. Data from the managed
         care contractors is missing, despite the State’s continued efforts to get complete data from
         the plans.

         States may also have problems getting data from other agencies within their own
         department. One SCHIP program adopted a goal for immunization rates at the request of
         the Department of Health, which coordinates a State-wide immunization campaign.
         Another agency within the Department that administers SCHIP collects the immunization
         information, but its data collection system is not very mature.

         Non-comparability. Comparing managed care and fee-for-service data was a problem
         for one State. The State intended to assess whether children received appropriate medical
         screenings but found that comparing children enrolled in different service types would
         require reorganizing the data, as utilization data from the SCHIP fee-for-service system is
         presented differently from their Medicaid managed care data. This State noted that
         Medicaid’s managed care program is oriented toward prevention. This led to the
         establishment of specific data elements for health screening and other prevention services.
         The State set up its SCHIP program on a fee-for-service model that provides less specific
         information about the delivery of prevention services to children. The SCHIP does not
         have a single code for health screening similar to the one used in the Medicaid program.
         The administrator indicated that her staff is working on making the fee-for-service and
         managed care data consistent, but that they might have to abandon the goal if they cannot
         compare the two groups.

         Small population. SCHIP is new, and even with strong enrollment, there may not be
         sufficient children in a State program to perform robust analysis. One State’s utilization
         analysis were conducted for all children enrolled in State-sponsored health care. The State
         felt that there were too few children in SCHIP alone to allow for reliable evaluations,
         especially when information on specific age or other categories is required.

         Another State report was based on 1 year of data. Few children were enrolled at the start
         of the year, and enrollment increased dramatically during that first year. The State
         administrator reports that because they experienced such a dramatic change in enrollment
         over a short time period, they cannot accurately determine the number of children who
         should make up the denominator for their health screening goal. Without this information,
         the State cannot assess whether the target number was met.




SCHIP - Evaluation                                14                               OEI-05-00-00240
                       RECOMMENDATIONS

         Over the past 3 years, States have been concentrating their efforts on getting the SCHIP
         program organized and operating by focusing on outreach and enrollment. There is now a
         need for States to shift their focus to evaluating the effectiveness of program
         administration and progress made towards the achievement of each State’s goals and
         objectives, as outlined in their State Plans. While State administrators believe they are
         successfully enrolling eligible children and reducing the overall number of uninsured
         children, they admit that they do not evaluate their efforts well.

         Improving States’ ability to conduct useful evaluations may require a multi-stage process.
         Initial stages should focus on improving State program staffs’ general understanding of
         evaluations, including the distinction between simply describing a process and true
         evaluation. Later stages should focus on staff knowledge of different types of evaluation
         and how these evaluation types can be used. In addition, SCHIP staff should become
         knowledgeable in preparing data for collection, determining the types of data that should
         be collected for various analysis, and evaluating data once it is collected.

         Federal regulations and policy provide little guidance to States on what constitutes an
         acceptable evaluation. Without more specific guidance about what SCHIP evaluations
         should contain and assistance conducting assessments, the information States provide does
         little to ensure that Federal Title XXI dollars are used to the greatest possible advantage.
         To increase the usefulness of SCHIP evaluations and facilitate the ability of SCHIP staff to
         conduct such improved evaluations:

HCFA should identify a core set of evaluation measures and develop a more
specific framework for the content and structure of the reports States are
required to submit.

         SCHIP staff need direction from HCFA on what kind of information it is seeking from
         States. The HCFA should identify a core set of evaluation measures that will enable all
         SCHIP States to provide useful information, independent of the way each State operates
         their SCHIP. The HCFA can do this by determining what information it needs evaluations
         to yield, how detailed this information must be, and what purpose the evaluations will
         serve. Providing this guidance will enable States to submit information best suited to
         address HCFA’s issues and concerns.

         The HCFA should develop a more specific framework for the content and structure of
         State evaluations. The HCFA should continue working with the National Academy for
         State Health Policy to create a template that provides States direction on how to address
         issues uniformly, leaving little room for ambiguity.




SCHIP - Evaluation                               15                                OEI-05-00-00240
HCFA and the Health Resources and Services Administration (HRSA) should
provide guidance and assistance to States in conducting useful evaluations
of their programs.

         To conduct more useful evaluations, SCHIP staff would benefit from assistance and/or
         training regarding data collection and evaluation, and resource determination.

         Data Collection and Evaluation - The HCFA and HRSA should assist States in building
         their capacity to collect required data. The need for quality data is intensifying as Federal,
         State, and local governments rely more heavily on program evaluations to make important
         programmatic decisions. However, States are finding those evaluations difficult due to
         limited data capacity and a lack of reliable and useful data.

         The HCFA and HRSA should work together to provide States training and guidance in
         the following areas: 1) what data to collect, 2) how to obtain specific data, 3) how to
         determine if the data is reliable, 4) how to determine what the data is yielding, and 5) how
         to evaluate the data. In addition, HCFA and HRSA should work with States to identify
         external sources of data and, as appropriate and necessary, work with these external
         sources to improve the reliability of data. For example, HCFA and other Federal agencies
         are working with the Census Bureau to increase the overall quality of CPS data. Because
         of States’ reliance on CPS data to conduct evaluations, this and similar efforts would
         increase States access to quality data without requiring large resource commitments from
         States.

         Resource Determination - Currently, poor coordination exists between SCHIP
         administration and the evaluation of SCHIPs. Program administrators indicated that their
         current focus is on enrolling children into the SCHIPs and, consequently, less attention is
         paid to evaluation. They also indicated that Federal reporting requirements are
         burdensome and funds for robust evaluations are lacking. The HCFA and HRSA should
         train administrators and staff to help reduce the poor coordination between administration
         and evaluation and make normal staff activities part of the evaluation process.

         Existing staff resources may not allow some States to fully address their needs to conduct
         useful and meaningful evaluations. Therefore, HCFA and HRSA should work with States
         to identify, where needed, additional evaluation resources. Depending on the extent of
         this need, HCFA and HRSA may want to explore various options, including offering
         States matching funds, creating set-aside funds within SCHIP for evaluations, increasing
         the amount of SCHIP funds that can be used for administration (i.e., evaluation), or
         tapping into available Departmental evaluation funds.

Agency Comments

         The Health Care Financing Administration and the Health Resources and Services
         Administration provided formal comments to the draft report. Both concur with the
         findings and recommendations. The full text of the their comments are included in
         Appendices A and B.


SCHIP - Evaluation                                 16                                OEI-05-00-00240
         The HCFA provided information regarding their work with States. The HCFA also noted
         they will continue to work in partnership with the National Academy for State Health
         Policy to develop a framework for Title XXI annual reports. The HRSA provided
         comments to clarify portions of the report. We made appropriate changes based on the
         comments we received.




SCHIP - Evaluation                            17                             OEI-05-00-00240
                          APPENDIX A




SCHIP - Evaluation   18    OEI-05-00-00240
SCHIP - Evaluation   19   OEI-05-00-00240
SCHIP - Evaluation   20   OEI-05-00-00240
                          APPENDIX B




SCHIP - Evaluation   21    OEI-05-00-00240
SCHIP - Evaluation   22   OEI-05-00-00240
